ATTORNEY GENERAL OF MISSOURI
ERIC SCHMITT
October 1, 2020
Scott S. Harris, Clerk
United States Courthouse
1 First Street, N.E.
Washington, D.C. 20543
Re:

Ernest Johnson v. Anne L. Precythe, et al.
No. 20-287

Dear Mr. Harris:
I am writing this letter to you to request an extension of time in which to file
the brief in opposition to the petition for writ of certiorari in the above styled cause.
The brief in opposition is due on October 5, 2020. I respectfully request an extension
of time, up to and including November 4, 2020, in which to file the brief in opposition.
Supreme Court Rules 30.2, .04.
Ginger Anders, counsel of record for petitioner, was contacted on September
29, 2020 and informed of the intention to request this extension of time. Ms. Anders
indicated that she did not oppose this request.
I appreciate your attention to this matter.
Sincerely,
ERIC SCHMITT
Attorney General
/s/ Katharine Dolin
Katharine Dolin
Assistant Attorney General

Broadway Building
P.O. Box 899
Jefferson City, MO 65102
Phone: (573) 751-3321
Fax: (573) 751-0774
www.ago.mo.gov

